CERTIFICATE OF WORD COUNT
Case No. ___________
Case Name: Jan Rouven Fuechtener v. United States
Document Title: Petition for a Writ of Certiorari
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the accompanying
Petition for a Writ of Certiorari, which was prepared using Century Schoolbook 12point typeface, contains 830 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the wordcount function of the word processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 13th day of October 2020.
/s/Brandon Sample
Brandon Sample
BRANDON SAMPLE PLC
P.O. Box 250
Rutland, Vermont 05702
Phone: (802) 444-4357
Fax: (802) 779-9590
brandon@brandonsample.com

